GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814

August 18, 2021

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543

Re:

No. 20-1541, Pivotal Software, Inc. v. Superior Court of California

Dear Mr. Harris,
I serve as counsel to respondents in the above-captioned case. By this letter,
respondents consent to the filing of any amicus curiae brief in this case in support of
either party or of neither party, provided that the brief otherwise complies with the
Rules of this Court.
Please let me know if you require any further information. Thank you very
much for your time and assistance.
Very truly yours,

Thomas C. Goldstein

cc: Counsel for petitioners and the Superior Court of California

(202) 362-0636
(866) 574-2033 fax

www.goldsteinrussell.com

